No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
BRITTANY SHANICE WILLIAMS,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas

APPENDIX A

Case: 19-11251

Document: 00515445860

Page: 1

Date Filed: 06/09/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11251
Summary Calendar

FILED
June 9, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
BRITTANY SHANICE WILLIAMS,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:15-CR-239-5
Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Brittany Shanice Williams appeals the revocation of her supervised
release and the 10-month sentence of imprisonment imposed upon revocation.
Her supervised release was revoked in accord with 18 U.S.C. § 3583(g), which
requires the mandatory revocation of supervised release and imposition of a
term of imprisonment for defendants found to have committed certain offenses,
including possession of a controlled substance.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-11251

Document: 00515445860

Page: 2

Date Filed: 06/09/2020

No. 19-11251
Williams argues that § 3583(g) is unconstitutional in light of United
States v. Haymond, 139 S. Ct. 2369, 2380 (2019), because it does not require a
jury determination of guilt beyond a reasonable doubt. As she concedes, review
of this unpreserved issue is for plain error. See Puckett v. United States, 556
U.S. 129, 135 (2009). Accordingly, she must show (1) a forfeited error, (2) that
is “clear or obvious, rather than subject to reasonable dispute,” and (3) that
affected her substantial rights.

If she does that, this court has the

Id.

discretion to correct the error and should do so “only if the error seriously
affects the fairness, integrity or public reputation of judicial proceedings.” Id.
(internal quotation marks, citation, and alteration omitted).
The

Supreme

Court’s

decision

in

Haymond

addressed

the

constitutionality of § 3583(k), and the plurality opinion specifically declined to
“express a view on the mandatory revocation provision for certain drug and
gun violations in § 3583(g).”

Haymond, 139 S. Ct at 2382 n.7 (plurality

opinion). The application of § 3583(g) was not plain error. See United States
v. Badgett, 957 F.3d 536 (5th Cir. 2020).
AFFIRMED.

2

APPENDIX B

Case 4:15-cr-00239-P Document 317 Filed 11/14/19

Page 1 U~~:
of 3 DISTRL(,;;l,.LOlJJU
PageID 1098
NORTHERN
DISTRICT OF TEXAS

FILED

IN THE UNITED STATES DISTRICT COUR'
NORTHERN DISTRICT OF TEXAp
FORT WORTH DIVISION

UNITED STATES OF AMERICA

NOV 1 4 2019

CLERK, U.S. DISTRICT COURT
BY------~,x~·p~ut~y--------

§
§

vs.

§
§

BRITTANY SHANICE WILLIAMS

§

NO. 4:15-CR-239-A

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, BRITTANY SHANICE

WILLIAMS.

After having considered the grounds of the

government's motion, defendant's admissions, statements of and on
behalf of defendant, the court has determined that the term of
supervised release imposed on defendant should be revoked and
that defendant should be sentenced to a term of imprisonment of
10 months and to serve a 24-month term of supervised release upon
discharge from prison.
The court finds and concludes that:
(a)

Defendant was given, in a timely manner, written

notice of her alleged violations of the term of supervised
release upon which the motion to revoke is based;
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearing;

Case 4:15-cr-00239-P Document 317 Filed 11/14/19

(c)

Page 2 of 3 PageID 1099

There was a disclosure to defendant, and her

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553 (a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the judgment in a criminal
case imposed and signed on January 6, 2017,

(the "underlying

judgment") be, and is hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, Brittany Shanice Williams, be, and is hereby,
committed to the custody of the United States Bureau of Prisons
to be imprisoned for a term of 10 months, to be followed by a
term of supervised release of 24 months.
The court further ORDERS, ADJUDGES, and DECREES that, while
on supervised release, defendant shall comply with the same
conditions as set forth in the underlying judgment, except that
2

Case 4:15-cr-00239-P Document 317 Filed 11/14/19

Page 3 of 3 PageID 1100

condition of supervised release number 6, requiring the payment
of the $1,000 fine is omitted, the fine having been paid.
The court hereby directs the probation officer to provide
defendant with a written statement that sets forth all the
conditions to which the term of supervised release is subject, as
contemplated and required by Title 18 United States Code
section 3583 (f) .
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is November 14, 2019.
SIGNED November 14, 2019.

J

N- McBRYDE
ni:fed States
I

..

Personal information about th~defendant is set forth on the
attachment to this Judgment ~,Revocation and Sentence .
.../

3

